   AUDIT OF COMPLIANCE WITH STANDARDS
  GOVERNING COMBINED DNA INDEX SYSTEM
ACTIVITIES AT THE BALTIMORE COUNTY POLICE
      DEPARTMENT CRIME LABORATORY
       BALTIMORE COUNTY, MARYLAND




         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


        Audit Report GR-30-11-002
                March 2011
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
       BALTIMORE COUNTY POLICE DEPARTMENT
                 CRIME LABORATORY
            BALTIMORE COUNTY, MARYLAND

                            EXECUTIVE SUMMARY

      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Baltimore County
Police Department Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

OIG Audit Objectives

      Our audit generally covered the period from November 2008 through
December 2010. The objectives of our audit were to determine if: (1) the
Baltimore County Police Department Crime Laboratory was in compliance
with the NDIS participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS.

       Our review determined the following.

   •   The Laboratory was in compliance with NDIS participation
       requirements we reviewed, including: physical and electronic
       security of CODIS; up-to-date training for Laboratory personnel;
       maintenance of training and qualification records; and timeliness
       of NDIS matches.

   •   The Laboratory was in compliance with Quality Assurance
       Standards (QAS) we reviewed, including: the most recent
       internal and external QAS reviews; physical security of the
       Laboratory; retention of evidence; and analysis performed by an
       outsourced contractor.

   •   We reviewed 100 of 538 forensic profiles the Laboratory had
       uploaded to NDIS as of November 15, 2010. Of the 100 forensic
       profiles sampled, we found that 98 of the sampled forensic
       profiles were complete, accurate, and allowable for inclusion in
       NDIS. We had concerns based on case file information that two
       profiles in our sample may not have met the NDIS allowability
       guidelines. The Laboratory agreed that one of the profiles was
       unallowable because of its tenuous link to a putative perpetrator,
       and was uncomfortable with the inclusion of another; both were
       subsequently removed from NDIS.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.
We discussed the results of our audit with Laboratory officials and have
included their comments in the report as applicable.



                                     - ii -
                                TABLE OF CONTENTS

                                                                                        Page
INTRODUCTION ................................................................................ 1

   Background ..................................................................................... 1

   OIG Audit Objectives ........................................................................ 1

   Legal Foundation for CODIS ............................................................... 2

   CODIS Structure .............................................................................. 2

   Laboratory Information ..................................................................... 6

FINDINGS ......................................................................................... 7

   I.    Compliance with NDIS Participation Requirements .......................... 7

   II.   Compliance with Quality Assurance Standards ............................... 9

   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 12

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 15

APPENDIX II: AUDIT CRITERIA ...................................................... 18

APPENDIX III: FEDERAL BUREAU OF INVESTIGATION
  RESPONSE TO DRAFT REPORT .................................................... 22




                                                 1
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
       BALTIMORE COUNTY POLICE DEPARTMENT
                 CRIME LABORATORY
            BALTIMORE COUNTY, MARYLAND

                                 INTRODUCTION

      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Baltimore County
Police Department Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from November 2008 through
December 2010. The objectives of our audit were to determine if: (1) the
Baltimore County Police Department Crime Laboratory was in compliance
with the National DNA Index System (NDIS) participation requirements;
(2) the Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. Appendix I contains a detailed description of our audit objectives,
scope, and methodology; and Appendix II contains the criteria used to
conduct the audit.



       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by participating states, (2) the
State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories within

      2
          42 U.S.C.A. § 14132 (2006).


                                        2
the state and state offenders, and (3) the Local DNA Index System (LDIS),
used by local laboratories. DNA profiles originate at the local level and then
flow upward to the state and, if allowable, national level. For example, the
local laboratory in the Palm Beach County, Florida, Sheriff’s Office sends its
profiles to the state laboratory in Tallahassee, which then uploads the
profiles to NDIS. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS issues for all CODIS-participating
laboratories within the state. The graphic below illustrates how the system
hierarchy works.

                    Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




                                                  3
National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory-
to-laboratory contacts. Within NDIS are eight searchable indices discussed
in the following paragraphs:

   •   Convicted Offender Index contains profiles generated from persons
       convicted of qualifying offenses. 3

   •   Arrestee Index is comprised of profiles developed from persons who
       have been arrested, indicted, or charged in an information with a
       crime.

   •   Legal Index consists of profiles that are produced from DNA samples
       collected from persons under other applicable legal authorities. 4

   •   Detainee Index consists of DNA records from non-United States (U.S.).
       persons detained under the authority of the U.S. and required by law
       to provide a DNA sample.

   •   Forensic Index profiles originate from, and are associated with,
       evidence found at crime scenes.

   •   Missing Person Index contains known DNA profiles of missing persons
       and deduced missing persons.

   •   Unidentified Human (Remains) Index holds profiles from unidentified
       living individuals and the remains of unidentified deceased individuals. 5

   •   Relatives of Missing Person Index is comprised of DNA profiles
       generated from the biological relatives of individuals reported missing.




       3
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.
       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.


                                               4
      Although CODIS is comprised of multiple indices or databases, the two
main functions of the system are to: (1) generate investigative leads that
may help in solving crimes and (2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

      In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. Those
persons may be identified through matches between indicies in CODIS, such
as through matches between the profiles in the Missing Person Index and
the Unidentified Human (Remains) Index. Identifications may also be
generated through matches between the Missing Persons Index and the
Relatives of Missing Persons Index. The profiles within the Missing Person
and Unidentified Human (Remains) Indices may be vetted against the
Forensic, Convicted Offender, Arrestee, and Legal Indices to provide
investigators with leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.




                                       5
       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       The utility of CODIS relies upon the completeness, accuracy, and
quantity of profiles that laboratories upload to the system. Incomplete
CODIS profiles are those for which the required number of core loci were not
tested or do not contain all of the DNA information that resulted from a DNA
analysis and may not be searched at NDIS. 6 The probability of a false match
among DNA profiles is reduced as the completeness of a profile increases.
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative
comparisons, or lead to the misidentification of a sample. CODIS becomes
more useful as the quantity of DNA profiles in the system increases because
the potential for additional leads rises. However, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The Baltimore County Police Department Crime Laboratory
(Laboratory) is a Local DNA Indexing System (LDIS) laboratory located in
Towson, Maryland. The Laboratory, which analyzes forensic samples, has
been a part of the CODIS program since December 2001, and currently
serves over 780,000 residents living in Baltimore County. It last received
accreditation in December 2009 through the American Society of Crime
Laboratory Directors/Laboratory Accreditation Board, and is due for renewal
in 2014. In addition, since 2003, the Laboratory has outsourced work to
Bode Technology through a contract run by Maryland State Police.




      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.


                                               6
                               FINDINGS

      I. Compliance with NDIS Participation Requirements

      The Baltimore County Police Department Crime Laboratory was
      in compliance with NDIS participation requirements we reviewed,
      including: physical and electronic security of CODIS; up-to-date
      training for Laboratory personnel; maintenance of training and
      qualification records; and timeliness of NDIS matches.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, security measures were adequate,
Laboratory personnel were up to date with training requirements and
required documentation, and the NDIS procedures manual was readily
available and accessible to all CODIS users. These results are described in
more detail below.

  •   NDIS requires that CODIS be physically and electronically safeguarded
      from unauthorized use and accessible to limited approved personnel.
      We conducted a walk through tour of the Biology Unit of the
      laboratory, which is separately key-coded and can only be accessed by
      personnel in the Biology Unit. The CODIS workstation is within the
      biology Unit, and each CODIS user has a unique password.
      Furthermore, the CODIS server is stored in a server room on a
      separate floor of the building. Following both the walk through tour
      and the interviews of Laboratory management and personnel, we
      found the security measures, both physical and electronic,
      safeguarding the CODIS work area to be adequate.




                                     7
  •   All Laboratory personnel were able to verify the location of the hard
      copy of the NDIS Procedures Manual, in addition to being able to
      access the Criminal Justice Information System Wide Area Network.

  •   We contacted the FBI to verify that all Laboratory CODIS users were
      up-to-date with training. All four CODIS users have completed NDIS
      training for 2010, and matched the list provided by the Laboratory.

  •   We verified that all Laboratory CODIS users submitted FBI required
      documentation for access to CODIS.

  •   We reviewed the Laboratory procedures in its Quality Assurance
      Manual (QAM) for maintaining personnel training and qualification
      records, and found that records are maintained on-site for a minimum
      of 5 years and off-site for a minimum of 10 years. In discussions with
      the Laboratory, the Laboratory manager told us that the personnel
      records are kept indefinitely.

  •   We selected and analyzed a sample of NDIS matches and found that
      the Laboratory requested confirmation of matches, confirmed matches,
      and reported matches to investigators in a timely manner.

Conclusion

   We found the Laboratory to be in compliance with the NDIS participation
requirements. Therefore, we made no recommendations concerning our
review of the NDIS participation requirements.




                                      8
   II. Compliance with Quality Assurance Standards

       We determined the Laboratory to be in compliance with Quality
       Assurance Standards (QAS) we reviewed, including: the most
       recent internal and external QAS reviews; physical security of
       the Laboratory; retention of evidence; and analysis performed
       by an outsourced contractor.

       During our audit, we considered the Forensic Quality Assurance
Standards (QAS) issued by the FBI. 7 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the two most
recent QAS reviews that the Laboratory underwent. 8 The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

     We found that the Laboratory complied with the Forensic QAS tested.
These results are described in more detail below.

   •   We verified that QAS reviews of the Laboratory were conducted. The
       Laboratory had an external QAS review performed in October 2009
       and an internal QAS review in November 2010. This is in accordance
       with QAS Standard 15, which directs laboratories to have a review
       performed every year, but once every 2 years must undergo an
       external review.

   •   We analyzed both the above mentioned QAS reviews, and found that
       neither made any findings.

   •   We contacted the external QAS reviewer from the 2009 QAS review
       and received a signed auditor independence statement for the period
       in question.



       7
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.
       8
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                             9
•   We toured the Laboratory and found that access to the facility is
    limited to the public, with police personnel posted at the entrance.
    Additionally, the Laboratory is housed on its own floor in which access
    is limited to only designated personnel. All doors in the building
    require key card access, and all visitors require an escort.

•   We reviewed the policies and procedures regarding evidence security
    and during our tour of the Laboratory, we were given a walkthrough of
    the evidence control process. We found the security of evidence and
    chain of custody to be acceptable. Furthermore, the Laboratory has
    adequate procedures in place to ensure accurate entry into LDIS.

•   We reviewed the policies and procedures the Laboratory implements
    regarding the separation of known and unknown DNA samples in
    accordance with the QAS standards. According to the Laboratory’s
    Quality Assurance Manual (QAM), as well as its personnel, the
    processing of known and unknown samples are to be separated by
    space or time. The samples are completed at different times, which
    we find to meet the standards outlined in the QAS.

•   We discussed the policies and procedures regarding retention of DNA
    samples after analysis with Laboratory personnel and reviewed
    Laboratory protocols, which we found to be in compliance with the
    QAS. The Laboratory retains DNA evidence when possible, and full
    consumption of a sample requires permission from the State’s
    Attorney’s Office. Furthermore, evidence is kept long term in the
    Laboratory’s Evidence Maintenance Unit.

•   We found that the Laboratory has outsourced work to Bode Technology
    Group (Bode) through a contract with the Maryland State Police. We
    received accreditation and audit documentation for Bode for relevant
    years. The Laboratory provided contracts for Bode; we reviewed the
    contracts and did not note any requirements that were not met.




                                   10
  •   We talked with Laboratory personnel who told us that 100 percent of
      Bode work has documentation in the case files indicating a technical
      review was performed. Furthermore, the Laboratory has contractors
      sign statements of compliance with QAS every year, and documents
      proficiency testing for all Bode analysts who analyze cases. During our
      review of Laboratory profiles, which included contracted cases, we
      found technical review documentation for all files.

  •   We reviewed the site visit documentation for Bode for the last 2 years.
      The Laboratory provided documentation for the 2010 site visit it
      conducted, and a 2008 site visit conducted by the Maryland State
      Police. The Laboratory explained it was exempt from the 2009 site
      visit requirement because its contract was in place prior to the July
      2009 QAS document. They supplemented the 2008 documentation
      with a review of the 2009 Bode QAS review. Our review found the site
      visits contained no issues, and the QAS review to have three issues,
      which were addressed and closed.

Conclusion

      We found the Laboratory to be in compliance with Quality Assurance
Standards (QAS) we reviewed, including: the most recent internal and
external QAS reviews; physical security of the Laboratory; retention of
evidence; and oversight of analysis performed by an outsourced contractor.
Therefore, we made no recommendations concerning the Laboratory’s
adherence to QAS.




                                     11
III. Suitability of Forensic DNA Profiles in CODIS Databases

      We reviewed 100 forensic profiles uploaded to NDIS by the
      Baltimore County Police Department Crime Laboratory and
      determined 98 profiles were complete, accurate, and allowable
      for inclusion in NDIS. We had concerns about the allowability of
      two profiles uploaded into NDIS. The Laboratory agreed that
      one of the profiles was unallowable in accordance with NDIS
      guidelines because it did not have an adequate link to the
      putative perpetrator, and was uncomfortable with the inclusion
      of another; both profiles were subsequently removed from NDIS.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 9 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. 10 Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection; however, NDIS guidelines prohibit profiles that match a
suspect if the suspect’s DNA could reasonably have been expected to be on
an item at the crime scene or part of the crime scene independent of the
crime. For instance, a profile from an item seized from the suspect’s person,
such as a shirt, or that was in the possession of the suspect when collected
is generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.




      9
         When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample is
taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
      10
           A “locus” is a specific location on a chromosome. The plural form of locus is loci.


                                              12
Results of the OIG Audit

       We selected a sample of 100 profiles out of the 538 forensic profiles
the Laboratory had uploaded to NDIS as of November 15, 2010. Of the 100
forensic profiles sampled, we had concerns about the allowability for two
profiles based on NDIS guidelines. The remaining profiles sampled were
complete, accurate, and allowable for inclusion in NDIS. The specific
exceptions are explained in more detail below.

OIG Sample Number CA-22

       Sample CA-22 was taken from a baseball cap found at the exterior
entrance to an apartment building in which a homicide occurred. We
followed up with the Laboratory regarding the location of the cap as
compared to the victim. We were provided a statement from the detective
on the case, who stated that the cap was found outside the apartment
building doors, and not the specific doors to the apartment where the crime
was committed. Considering the location of the hat in relation to the crime
scene, we did not consider it to be attributable to the putative perpetrator in
accordance with NDIS guidelines and found the profile to be unallowable for
upload into NDIS. The Laboratory agreed with the finding and removed the
profile.

OIG Sample Number CA-75

       Sample CA-75 was taken from a gun allegedly used in a robbery and
attempted murder. The gun was found in a laundry basket located in the
basement of the victim’s apartment building. The basket was found in a
community laundry room after detectives provided a warrant and searched
the premises. At the time of the recovery, the suspect was adjacent to the
laundry basket containing the gun. We noted that the suspect's proximity to
the gun when it was recovered may have indicated that it was in his
possession, thereby indicating it may be reasonable to assume that the
suspect’s DNA might be on the weapon. We requested additional
information on the profile and Laboratory personnel noted that the case file
did not clearly distinguish whether the laundry basket the gun was found in
was communal property (possibly containing DNA from persons unrelated to
the crime), or the property of the suspect (whose DNA could reasonably be
present). The Laboratory stated it was uncomfortable with the profile’s
inclusion in NDIS and subsequently removed it.




                                      13
Conclusion

      We reviewed 100 forensic profiles the Laboratory had uploaded to
NDIS and found two that, based on the facts of the case, had questionable
allowability in accordance with NDIS guidelines. The Laboratory removed
both profiles. The remaining profiles were accurate, complete, and
allowable. As such, we made no recommendations concerning our review of
Forensic DNA profiles.




                                   14
                                                                         APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from November 2008 through
December 2010. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

   •   Examined internal and external Laboratory QAS review reports and
       supporting documentation for corrective action taken, if any, to
       determine: (a) if the Laboratory complied with the QAS, (b) whether
       repeat findings were identified, and (c) whether recommendations were
       adequately resolved.11

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews
       be performed by personnel who have successfully completed the FBI’s
       training course for conducting such reviews.


       11
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we refer to the QAS audits as reviews (either internal or
external laboratory reviews, as applicable) to avoid confusion with our audits that are
conducted in accordance with GAS.


                                            15
       As permitted by GAS 7.42 (2007 revision), we generally relied on the
       results of the Laboratory’s external laboratory review to determine if
       the Laboratory complied with the QAS. 12 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation for 10 of 15 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of NDIS matches as of December 2,
       2010. The sample was judgmentally selected to include both case-to-
       case and case-to-offender matches. This non-statistical sample does
       not allow projection of the test results to all matches.

       Reviewed supporting documentation to determine whether the
       Laboratory provided adequate vendor oversight. Reviewed the case files
       for selected forensic DNA profiles to determine if the profiles were
       developed in accordance with the Forensic QAS and were complete,
       accurate, and allowable for inclusion in NDIS.

       12
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.


                                             16
      Working in conjunction with the contractor used by the FBI to maintain
      NDIS and the CODIS software, we obtained an electronic file identifying
      the 538 Short Tandem Repeat forensic profiles the Laboratory had
      uploaded to NDIS as of November 15, 2010. We limited our review to a
      sample of 100 profiles. This sample size was determined judgmentally
      because preliminary audit work determined that risk was not
      unacceptably high.

  •   Using the judgmentally-determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     17
                                                                       APPENDIX II

                                AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

   •   DNA Data Acceptance Standards
   •   DNA Data Accepted at NDIS
   •   Quality Assurance Standards (QAS) Reviews
   •   NDIS DNA Autosearches
   •   Confirm an Interstate Candidate Match
   •   General Responsibilities
   •   Initiate and Maintain a Laboratory’s Participation in NDIS
   •   Security Requirements
   •   CODIS Users
   •   CODIS Administrator Responsibilities
   •   Access to, and Disclosure of, DNA Records and Samples
   •   Upload of DNA Records
   •   Expunge a DNA Record
   •   The FBI Flowchart: A Guide to Determining What is Allowable in the
       Forensic Index at NDIS 13




       13
          The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
CODIS Administrator’s Handbook and has been provided to laboratories in referendums
such as CODIS conferences.


                                            18
Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). (The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.)

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented sample inventory control system to ensure the
       integrity of database and known samples.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS Standard 12.1): The laboratory shall have and follow
       written procedures for reviewing DNA records and DNA database
       information, including the resolution of database matches.




                                       19
  •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
      laboratory shall be audited annually in accordance with [the QAS]. The
      annual audits shall occur every calendar year and shall be at least 6
      months and no more than 18 months apart.

      At least once every two years, an external audit shall be conducted by
      an audit team comprised of qualified auditors from a second
      agency(ies) and having at least one team member who is or has been
      previously qualified in the laboratory’s current DNA technologies and
      platform.

  •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS Standard 17.4: An NDIS participating laboratory shall
      have, follow and document appropriate quality assurance procedures to
      verify the integrity of the data received from the vendor laboratory
      including, but not limited to, the following: Random reanalysis of
      database, known or casework reference samples; Inclusion of QC
      samples; Performance of an on-site visit by an NDIS participating
      laboratory or multi-laboratory system outsourcing DNA sample(s) to a
      vendor laboratory or accepting ownership of DNA data from a vendor
      laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.




                                     20
•   Accuracy of DNA Profiles: The values at each locus of a profile must
    match those identified during analysis. Our rationale for this standard
    is that inaccurate profiles may: (1) preclude DNA profiles from being
    matched and, therefore, the potential to link convicted offenders to a
    crime or to link previously unrelated crimes to each other may be lost;
    or (2) result in a false match that would require the unnecessary use
    of laboratory resources to refute the match.

•   Timely Notification of Law Enforcement When DNA Profile Matches
    Occur in NDIS: Laboratories should notify law enforcement personnel
    of NDIS matches within 2 weeks of the match confirmation date,
    unless there are extenuating circumstances. Our rationale for this
    standard is that untimely notification of law enforcement personnel
    may result in the suspected perpetrator committing additional, and
    possibly more egregious, crimes if the individual is not deceased or
    already incarcerated for the commission of other crimes.




                                   21
                                                                                 APPENDIX III

             THE FEDERAL BUREAU OF INVESTIGATION
                RESPONSE TO THE DRAFT REPORT
                                                        U.S. Department of Justice


                                                        Federal Bureau of Investigation




                                                        Washington, D. C. 20535-0001



                                                     March 15, 2011


Troy M. Meyer
Regional Audit Manager
Washington Regional Audit Office
Office of the Inspector General
1300 North 17th Street
Suite 3400
Arlington, VA 22209


Dear Mr. Meyer:

               Your memorandum to Director Mueller forwarding the draft audit report for the
Baltimore County Police Department Crime Laboratory, Towson, Maryland (Laboratory), has
been referred to me for response.

               Your draft report contained no recommendations relating to the Laboratory's
compliance with the FBI’s Memorandum of Understanding and Quality Assurance Standards for
DNA Testing Laboratories. The CODIS Unit reviewed the draft report and since it appears that
the Laboratory is in compliance with NDIS participation requirements, the CODIS Unit has no
significant comments to provide about the draft report.

                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer Luttman, Chief of the CODIS Unit, at (703) 632-8315.

                                                    Sincerely,


                                                     Alice R. Isenberg, Ph.D
                                                     Section Chief
                                                     Biometrics Analysis Section
                                                     FBI Laboratory




                                               22
